                                                                                            Clos out --
                                    NATIONAL SCIENCE FOLINDATION                                Page 1 of 2
                                            4201 WILSON BOULEVARD
                                           ARLINGTON, VIRGINIA 22230




        OFFICE OF
I   INSPECTOR GENERAL

                                                                                        .   ,

        MEMORANDUM                                                              '   1




        Date:             August 27,1998                        d




        To:               File No. I9708

        From:                                              Investigations

       Through:         -pecial                     Agent-in-Charge,

        Re:               Close out -


       Backmound:

        O n August 1, 1997, our office received a referral from the Defense Criminal Investigative
       ~ e r v i c e - ( ~Mid-Atlantic
                           ~~~),       Field Office that the Boston MA DCIS office was
       currently investigating a case involving
       a research company located in Somerville        ,whic participates in the Small Business
                                                                                                 W
       Innovation Research (SBIR), program.
                                       ? I - &                                                  6 of
       which were Phase I1 awards. We r e v i e w e d m e d e r a l awards to determine if they had
       received funding for duplicate proposals.

       Investieration:

       We reviewed all of the abstracts of SBIR awards received by             federal agencies.
       In doing so, we found vadous abstracts that appeared to be simi ar, which suggested the
       possibility that these abstracts were from duplicate proposals submitted to different federal
       agencies.
     We requested and received copies of the DOE proposals and final reports and compared
     these to the NSF proposals and final reports. Our review concluded that these were not
     duplicative submissions.

     Conclusions:

     We have found no evidence of fraud or other criminal activities. DCIS and the
                of Energy (DOE) are still reviewing evidentiary documents and investigating
            e have informed these agencies of our findings.

,-   This case-is-closedat-thistime.                              . -   -
